                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM


                                                                                      1
                                                                                                      I




    Case Number: 104100039                                                                       Page ,I of 1
                                                                                                       I/




             In October 2004, OIG received information from DIS' indicating that                                                                    had
             discovered pornographic images on the personal R: drive of an NSF employee2.                 IN




             Our investigation included reviewing the files on the subject's r-drive and in their outlook folders
             and interviewing the subject. Our review of the subject's computers identified numerous'
             inappropriate files and programs. When confronted with this information the subject admitted to
             downloading some of the files but denied knowingly downloading the pornographic files! We
             also reviewed an NSF laptop computer that had been in the possession of the subject and I'
             identified additional pornographic files. A Report of Investigation3 was completed and submitted
                                                                                                         I(
             to NSF officials4for administrative action in December, 2004.                                     I



             We received documentation in May, 2005 indicating that the subject had received a 5 day1'
             suspension for violating NSF policies regarding inappropriate use of NSF electronic resodrces.'
                                                                                                      11




             Accordingly, this case is closed.
                                                                                                                   I

                                                                                                                   I

                                                                                                                   I/


                                                                                                                       I1




                                                                                                                        II




                                                                                                                             I




                                                                                                                                 1,




                                                                                                                                      !




              I
                                                                                                                                      I

                                                                                                                                      I1


                                                                                                                                       !


                                                                                                                                       I1


                                                                                                                                           I

                                                                                                                                           I


t
                                                                                                                                           11


                                                                                                                                           I!

                                                                                                                                            1
    NSF OIG Form 2 (1 1/02)
                                                                                                                                               I1
          .
     .\   C.
                                                                                                            I



    ,-
               f
                                   Nationir~'ScienceFoundation                             t
     *
                                  4201 Wilson Boulevard, Arlington, Virginia 22230

                                                                                                                I




                   Memorandum                                                                                   I!




                   DATE:          May 18,2005                                                                    I/




                                 I
                                                                                                                 /I

                   TO:                                                                                               11


                   FROM:
                                                                                                                     I1


                                                                                                                     I/



                   SUBJECT:       Decision on Proposed Suspension                                                     I




                                                         1
                                                                                                                      I/

                                    dated April 1,2005
                           oposed your suspension from duty and pay from your pos~tlonas
                                      (12) calendar days for your: 1) maintaining pornographic and other,,
                   inappropriate material of a sexual nature on a government-owned computer, 2) maintaining
                   and forwarding pornographic and other inappropriate material of a sexual nature on a
                   government-owned computer, and 3) installing and using Kazaa peer-to-peer software io
                   download music files to a government-owned computer.
                                                                                                                           I,



                   You were given the right to reply orally and in writing and to present affidavits or other
                   documentary evidence in support of your response. You did not make a reply.
                                                                                                                            4
                                                                                                                            I


                   I have given thought and consideration to the file supporting the proposed action. Based on
                   the facts of this case, I have determined that the evidence presented in the file supports,the
                   charges. I have also determined that a suspension is warranted in order to promote the.,
                   efficiency of the Federal service.                                                                           I(




                   In reaching this decision, I considered the factor-et                   forth in his propos{i
                   letter, such as the nature and level of your position, the nature and seriousness of your
                   misconduct, and its impact on our office effectiveness. This type of misconduct is seriok
                   and does not reflect well on the office and the Foundation. However, I also considered that



                   a reliable and trustwo
                   towards a solid and productive relationship. While these past actions are serious, and ,
                   cannot be condoned, they have not significantly eroded management's trust in you, nor ,,
!                  undermined management's confidence in                her considered on your behalf that you
                   have been employed by the Foundation sinc            and that your last performance rating
                                                                                                                                     h
                   was Outstanding.

                   I also consideres u g g e s t i o n that if this suspension is upheld, that it be '
                   implemented in 3- ay ~ncrementsover a six-month period, to lessen the adverse financial1
                   impact it may cause.- In light of this request, and your supervisor's endorsement and                                 ,I


                   confidence in you, I have decided to mitigate the length of the suspension from 12 calendar
                   days to 5 calendar days. I encourage you to continue your positive movement forward in ,
                   your present position. I believe I reach an appropriate balance in mitigating this action to a 5-
                   day suspension as a fair penalty in this matter.
                                                                              (5) calendar days,
I                                                                         ill continue to be in
                                                                            You are expected to
                                                                                  documenting this

                                                                           *
    Please understand that further repetition of this or any other typtiofpisconduct going
                                                                                           I/



    forward may result in more severe disciplinary action, up to and lnchding your removal'from
    the Federal service.                                                                    11
                                                                                             I


    You have the right to grieve this action under the provisions of the administrative grievance
    procedure described in the PER man@l, Chapter 5, S&chap!er 300, a copy of which is
    gtwhed. You may present a grievance at any time after receipt of this memorandum, but
    not later than 15 days after receipt.                                                    [I



    If you have any questions regarding your rights or the proced,uresused in this matter, you
    may contact                  Senior Employee Relations Specialist, at
          National Science Foundation
          Office of Inspector General:




                              Confidential
                          Investigation Report



                                                                                              I/



   ,Thk C O N ~ E N T I ~DLR  A F T ~ I ~ ~ ~ G A    ~ G Nis lent t6 you FOR OFFICIALU S E * O ~ ~ .
                                                  REPORT
          It &mains the propeeof the Office'of InspectorGem'raL It may nothe repkodked
   It maybe disclosed outside NSF only by the Ilispector Getieral under the Freedom of ~nformationd d
                                                                                                   'I
                                   Privacy Acts, 5 U.S.C $§ 552,552a
                                                                                               11

                                                                                                   I1
NSF OIG Form 22a (1103)
                                        Summary

This investigation involves an NSF employee,' who acknowledged to OIG, downloading
copyrighted music through the use of the Kazaa Peer to Peer software in violation ofiNSF
policies and possibly downloading inappropriate, sexually explicit videos. These
activities took place at various times from May 2003 through October 2004, while the
subject was on duty. Additionally, this employee downloaded these files to her personal
directory on the NSF network. The video clips included scenes involving males and i
females engaging in sexually explicit activity. The subject also maintained and
forwarded numerous e-mails found to contain sexually explicit photographs and v i d ~
clips. The NSF Office of Inspector General (OIG) has identified potential violations of
two current NSF Policies. The first being the Personal Use of NSF's Technology and
Communication Resources contained in NSF Bulletins 98-13 and 04-1 1.2 The second
being the Peer-to-Peer File Sharing Policy contained in NSF Bulletin 04-15.3
                                                                                        I


                                    OIG Investigation

In October 2004, OIG received information from DIS indicating that
           s had discovered pornographic images on the personal R: drive of an NSF      1.


employee. They stated that the subject had recently changed job assignments and the ,
change required that all of her computer files be moved to another server. While
attempting to move the files it was determined that the subject had in excess of 15   ,,
gigabytes stored on her network drive. The files were so large that they could not be
moved as one unit. While attempting to move the files several file names were identififd
that appeared to contain sexually explicit material.          immediately backed up the!i
files and notified OIG.
                                                                                             I/
A search of the subject's network directory identified a folder labeled as
                                                                                             "
                                         This folder was found to contain numerous
subfolders and thousands of music files with the most recent files downloaded on
October 20,2004.~
                                                                                              I1


Additional searches of this directory identified numerous video files including 16 video I
files with titles indicating sexual content. Further review of these videos identified them
as short 4-10 minute film clips of males and females engaged in various sexual acts.

Also identified during this search were 2 versions of the Kazaa Peer to Peer program andI1
additional information regarding Kazaa including several help screens. The Kazaa
applications were located in two zip files that had not been opened or loaded. No copies
                                                                                                   Il
of any Kazaa programs currently operating were located on the network directory.
After scheduling the interview with the subject but prior to conducting the interview, a
follow-up search of the subject's network directory identified that all of the sexually
explicit videos had been deleted.

The subject was interviewedSby representatives from NSF7sOIG in reference to the files
found on the computer. Prior to the interview the OIG provided the subject with both a
Garrity warning6 and a Weingarten warning,' both of which were read and signed by the
subject. The subject requested and was represented by a member of the bargaining unit.*
During the interview the subject initially admitted that she did load and use Kazaa on her
NSF computer to download music files. However, she stated that after somebody ,
informed her that NSF prohibited the program, she deleted the program from her files and
stopped using it to download music. The subject could not recall specifically when she
learned that it was prohibited or when she deleted the program but she was sure she had
deleted it. Our review of the directory found copyrighted music files that had been
downloaded as recently as 10/20/04.

With respect to the pornographic videos, the subject denied any knowledge of the
pornographic materials on her computer. She stated that others had access to her
computer and password. The subject was asked for the names of any individuals who
had access to her password, so that they could be interviewed regarding the downloaded
pornographic files. The subject responded that she did not say that she had not put thdse
files on her R drive, only that she did not recall doing it and did not know if she did it br
not. She offered as an explanation that maybe when she was downloading music with':
Kazaa, some of these videos were inadvertently downloaded as well.

                                                                                        ,
                                                                                          I/

The subject was advised that these videos contained very graphic titles and were
maintained on her R drive, which only she had access to. She denied again realizing that
they had been on her R drive, even though she admitted accessing her R drive on a        ,
regular basis, every day. The subject also denied ever seeing these files even though they
have been in her personal network directory for more than a year and are located side by
side with music files that she admittedly uses frequently.
                                                                                               I

When questioned about the recent deletion of the questionable files the subject denied
having gone into her R: drive and removing the individual files containing pornographic
materials. However, she admitted that after receiving notification of the investigation
                                                                                               I'
from OIG, she accessed Media Player and selected all emails with videos and deleted
them as a whole, without looking at any individually.
AAer conducting the initial interview, OIG received additional information that a laptop
computer that the subject had access to was found to contain several internet links and
shortcuts to adult web sites containing sexually graphic materials9A subsequent search
of this laptop found several files directly linked to the subject.'' Additionally, an e-mail
was identified that confirmed that the subject was in possession of an NSF laptop
computer for an undetermined time leading up to July 2003. OIG's search of this
                                                                                         11
computer identified several internet sites that had been visited and added to the
computer's favorites folder during the time frame the subject was in possession of an''
NSF laptop computer.'*                                                                    I,


                                                                                           I

OIG reviewed the subject's e-mail files maintained in outlook folders on the NSF     ,,
network." This review concentrated on e-mails that contained attachments. A reviey of
several hundred e-mails, both to and fiom the subject, identified numerous inappropriate
attachments that the subject was maintaining in her outlook folders on the NSF ~etwdrk.
The subject had also forwarded many of these attachments to other individuals.14 our"
review did not identify any other NSF employees receiving these e-mails fiom the
subject.

The subject was inter~iewed'~    a second time by representatives fiom NSF's OIG in
reference to the additional information discovered during the investigation. This
information included the discovery of additional sexually explicit internet links found on
                                                                                               11
an NSF laptop that had previously been in the subject's possession and e-mail
attachments maintained and sent by the subject on NSF's network. Prior to the interview,
the OIG provided the subject with both a Garrity warning16 and a Weingarten warning,17
both of which were read and signed by the subject. The subject declined to be              l~

represented by a member of the bargaining unit for this interview. During the interview
the subject admitted that she had borrowed an NSF laptop to use at home. The subject
stated that she was working on her resume and had the computer for somewhere betwehn
one week and one month. She added that at one point she had forgotten about having it'
and the                  in her office asked about it. When questioned about the
inappropriate internet links the subject responded that while she had the computer at her
home she allowed                to use it and he must have visited the sites in question. q e
subject also stated that shortly after she returned the laptop she was contacted by the
           n who advised her that he had found some internet links to adult web sites on
the laptop. The subject stated that she told the             that             must have usid
                                                                                              I
the laptop to access those sites.
                                                                                        I/
The subject was then questioned about the inappropriate e-mails found in her outlook
folders and she acknowledged that she had received them and forwarded some of them to
others. The subject also admitted that she was aware that the sexually explicit
attachments were inappropriate to have and transmit on her NSF computer.

                                      OIG Analysis

Based on the information contained in this report, the presence of sexually explicit
material in the subject's e-mail folders and the subject's own admission that she
downloaded files, including music files, through the use of Kazaa, OIG has determidd
that the subject routinely downloaded various music files and sexually explicit video blips
and maintained these files in her personal directory on NSF's network. The subject also
used her access to e-mail services at NSF to send, receive and forward e-mails that
contained inappropriate material such as sexually explicit attachments. The subject aiso
continued to utilize the Kazaa application after being advised that NSF policy prohibited
the use of this and similar types of peer-to-peer programs.                            I



                                    OIG Conclusions                                          1
                                                                                             I



By downloading and maintaining inappropriate fdes, such as pornographic photos
and videos, on her personal directory on the NSF computer network, the subject 11
knowingly violated policies contained in NSF BULLETIN 04-11, Personal Use of                 II


NSF's Technology and Communication Resources, which states; "Basic access to the
Internet or electronic mail system does not result in an increased cost to the agency.
                                                                                 -
                                                                                             I/




Hence, employees may make use of the Internet and electronic mailfor matters that ark
                                                                                    ~




not oficial business provided that thefollowing criteria are met: ( I ) the use does not
result in an additional charge to the government (web sites are generally identiJied as
such when the user attempts to access them), 12) the use is not offensiveto co-worked or
the public (such as sexuallv explicit or other wise inappropriate web sites), and (3) th'e
use is notfor illegal activities (such as gambling)." (Emphasis added)                            [I




By installing and using Kazaa peer-to-peer software to download copyrighted mudic
files to the NSF network, the subject knowingly violated policies contained in NSFI
BULLETIN 04-15, Peer-to-Peer File Sharing Policy, which states; "All Federal             ,,
agencies have been encouraged to protect their computers and networksfrom the
                                                                                         I1
security risks posed by peer-to-peer file sharing. Internet peer-to-peer sofhvare shall not
be installed on any NSF workstation that connects to any NSF network without prior 1'
approval of the NSF CIO or his or her designee. Unauthorizedpeer-to-peersoftware ,
installed on your NSF workstation or any other system attached to the NSF network must
be removed." And fiuther states "NSF will monitor its systemsfor compliance with this
peer-to-peer file sharing policy. Unapproved use of peer-to-peer software mav result in
disci~linarvaction." (Emphasis added)                                                      I
                                 OIG Recommendations

In reference to the conclusions outlined above, we recommend that the National Science
Foundation proceed with administrative actions that are appropriate and consistent wi{h
previous similar incidents.
                                                                                    I


Please advise us.of the actions taken in this case by January 3 I, 2005.
                                                                                    !i
